fi

@OCKLE

2311 Douglas Street L ief E-Mail Address:
Omaha, Nebraska 68102-1214 ega l B qi 1 on contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No, 19.975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

v. :

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE THE EQUAL VOICE NETWORK
AND LA UNION DEL PUEBLO ENTERO IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

EFREN C. OLIVARES
Counsel of Record

ANDREW UDELSMAN
RICARDO A. GARZA
CAROLYN O’CONNOR
TEXAS CIVIL RIGHTS PROJECT
1017 W. Hackberry Avenue
Alamo, TX 78516
(956) 787-8171
efren@texascivilrightsproject.org

Subscribed and sworn to before me this Sth day of March, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

eas? Oudrawh, Chl

Affiant 39556

  

A GENERAL MOTARY-State of Nebraska
RENEE J, GOSS
My Gomm. Exp. September 8, 2023

   

Notary Public
SERVICE LIST

Anchun Jean Su

Eric R. Glitzensetein

Brian P. Segee

Center for Biological Diversity

1411 K Street NW, Suite 300

Washington, DC 20005

202-849-8399

jsu@biologicaldiversity.org

Counsel for Petitioners Center for Biological Diversity, et al.

Noel J. Francisco

Solicitor General of the United States

U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.

Washington, D.C. 20530-0001

202-514-2217

supremectbriefs@usdoj.gov

Counsel for Respondents US Department of Homeland Security, et al.
